No. 20-564

In the Supreme Court of the United States
RODNEY CARLISLE, JR.,
Petitioner,
v.
COMMONWEALTH OF KENTUCKY,
Respondent.
CERTIFICATE OF SERVICE
I, Michael A. Vatis, counsel for Amici, hereby certify that on this 21st day of December, 2020, I caused copies of the Brief of Amici Curiae Professors of Criminal Law
and Criminal Procedure in Support of Petitioner to be served by electronic mail on
the following counsel:
David A. O’Neil
Debevoise & Plimpton LLP
801 Pennsylvania Ave. N.W.
Suite 500
Washington, D.C. 20004
(202) 383-8000
daoneil@debevoise.com

James Havey
Office of the Attorney General
1024 Capital Center Drive
Frankfort, KY 40601
(502) 696-5498
james.havey@ky.gov

Attorney for Petitioner

Attorney for Respondent

I further certify that all parties required to be served have been served.
/s/ Michael A. Vatis
Michael A. Vatis
Steptoe & Johnson LLP
1114 Avenue of the Americas
New York, New York 10036
(212) 506-3900
mvatis@steptoe.com
Counsel for Amici Curiae

